2311 Douglas Street

@OCKLE

Legal Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-91
MICHELE BUCKNER, WARDEN,
Petitioner,
Vv.
ROBERT W. ALLEN,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 2nd day of August, 2019, send out
from Omaha, NE 1 package(s) containing 3 copies of the BRIEF IN OPPOSITION in the above entitled case. All parties
required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

CRAIG A. JOHNSTON STUART BANNER
Assistant State Public Counsel of Record

Defender UCLA School of Law
1000 West Nifong Supreme Court Clinic
Building 7, Suite 1000 405 Hilgard Ave.
Columbia, MO 65203 Los Angeles, CA 90095

(310) 206-8506
banner@law.ucla.edu

Subscribed and swom to before me this 2nd day of August, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \ wv Chk,
State of Nebraska . ,

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38480
D. John Sauer

Solicitor General

207 West High St.

P.O. Box 899

Jefferson City, MO 65102
(573) 751-1307
John.Sauer@ago.mo.gov

Counsel for Petitioner
